September 28, 2000

RUDOLPH K. UMSCHEID
VICE PRESIDENT, FACILITIES

SUBJECT:	 Audit Report - Audit of New Construction Owned
          (Report Number FA-AR-00-003)

This report presents the results of our review of new construction owned (Project
Number 00RA006FA000). We conducted this audit to assess the program results of
Postal Service procedures for site selection and acquisition. This report addresses the
four Facilities Services offices responsible for the largest number of projects. The audit
was included in our fiscal year 2000 audit workload plan.

Our review highlighted opportunities to improve internal controls over the site selection
and acquisition process. Specifically, 58 of the 124 site acquisition files reviewed did
not provide documentation to support the reason a specific site was acquired.
Additionally, the Mid-Atlantic Facilities Service office site acquisition files do not contain
documentary evidence of legal review. Management agreed with our recommendations
and the actions taken should correct the issues discussed in this report. Management’s
comments and our evaluation of these comments are included in the report.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions, or need additional information please contact Mr. Anthony
Cannarella, director, Facilities, at (703) 248-2270, or me at (703) 248-2182.



Billy Sauls
Assistant Inspector General
 for Business Protection

Attachment
cc: William J. Brown
    A. Keith Strange
    George L. Lopez
    Henry A. Pankey
    Craig G. Wade
    William H. Hanson
    John R. Gunnels
Audit of New Construction Owned                       FA-AR-00-DRAFT



                                  TABLE OF CONTENTS

Executive Summary
                                          i

Part I

Introduction

   Background                                               1

   Objective, Scope, and Methodology                        1

   Prior Audit Coverage                                     2


Part II

Audit Results                                               3


   Site Selection                                           3

   Recommendation                                           4

   Management’s Comments                                    4

   Evaluation of Management’s Comments                      4


   Legal Review                                             5

   Recommendation                                           5

   Management’s Comments                                    5

   Evaluation of Management’s Comments                      5


Appendix. Management’s Comments                             6

Audit of New Construction Owned	                                               FA-AR-00-DRAFT



                                   EXECUTIVE SUMMARY
 Introduction 	               We completed an audit to assess the program results of
                              Postal Service procedures for site selection and acquisition.
                              This report addresses the four Facilities Service offices
                              responsible for the largest number of projects.

 Results in Brief             The audit revealed that the Facilities Service offices could
                              improve their internal controls over the site selection
                              process. Specifically, 58 of the 124 files did not clearly
                              document the reason that a specific site was chosen. This
                              occurred because the site selection committee did not
                              specify the reason for their selection and the Contending
                              Sites Summary Report did not clearly favor the site
                              selected. In addition, the Mid-Atlantic Facilities Service
                              office did not clearly document that required reviews by the
                              field counsel’s office were accomplished. This condition
                              occurred because the manager of real estate at the Mid-
                              Atlantic Facilities Service office conducted business by
                              telephone and neither prepared memoranda of the
                              discussions nor required confirming memoranda from the
                              field counsel office.

                              Any time Postal Service funds are expended in support of a
                              project, the reason that the expenditure was necessary
                              should be clearly documented.

 Summary of                   We recommend that the vice president, Facilities, require
 Recommendations              that each Site Selection Committee document the reason
                              for its selection. We also recommend that the vice
                              president, Facilities, require the manager of the Mid-Atlantic
                              Facilities Service office obtain a memo from the field
                              counsel office acknowledging legal sufficiency of each real
                              estate transaction under their purview.

 Summary of                   Management indicated agreement with our
 Management’s                 recommendations and issue guidance requiring the reason
 Comments                     for site selection to be documented, and reaffirming the
                              requirement to document the legal sufficiency of each real
                              estate transaction. We have included the full text of
                              management's comments in the Appendix.

 Overall Evaluation of        Management's comments are responsive and address the 

 Management’s                 issues identified in the report. 

 Comments 




                                               i
Audit of New Construction Owned                                                FA-AR-00-DRAFT



                                     INTRODUCTION
 Background                   Facilities is an enabling organization whose primary mission
                              is to provide quality real estate and facilities products and
                              services to meet the present and future needs of postal
                              operations. Organizationally, Facilities is comprised of
                              headquarters Facilities, 11 Facilities Service offices, and
                              3 satellite offices. Facilities accomplishes projects at the
                              request of the areas and districts. The owned facilities
                              program is divided into two segments: customer service
                              facilities and mail processing facilities. The owned facilities
                              program includes such phases as: requirements, planning
                              and approval, site acquisition, design, and construction.

 Objective, Scope, and        The audit objective was to assess the program results of
 Methodology                  Postal Service procedures for site selection and acquisition.

                              We determined that the Postal Service managed 394 site
                              selection and acquisition projects between FY 1998 and
                              March 2000. We focused this review on the Atlanta, Dallas,
                              Denver, and the Mid-Atlantic Facilities Service offices.
                              These four Facilities Service offices accounted for 199 of
                              the 394 projects identified. We selected 124 of the
                              199 projects for review based on a statistical sample. This
                              is the first phase of an overall sample to project to the
                              universe. We are not making an interim projection. We are
                              presenting the sample results of the first phase.

                              We identified 24 potential actions associated with the site
                              selection and acquisition process. We reviewed the offers
                              to sell, site selection documents, due diligence documents,
                              and acquisition documents. Also, we reviewed the files for
                              documentary evidence of legal review. We interviewed
                              contracting personnel as needed.

                              This audit was conducted from February through
                              September 2000 in accordance with generally accepted
                              government auditing standards and included such tests of
                              internal controls, as were considered necessary under the
                              circumstances. We discussed our conclusions and
                              observations with appropriate management officials and
                              included their comments, where appropriate.




                                               1
Audit of New Construction Owned                                               FA-AR-00-DRAFT



 Prior Audit Coverage         We reviewed reports by the U.S. General Accounting Office
                              (GAO), and found three reports that apply to this review,
                              which are listed below.

                              Report number GGD-96-59, “Conditions Leading to
                              Problems in Some Major Purchases,” dated January 18,
                              1996. The GAO reported that problems encountered on
                              seven purchases, which they reviewed, were due to postal
                              officials’ poor judgment, circumvention of existing internal
                              controls, and failure to resolve conflicts of interest.
                              Problems with real estate transactions were due to
                              shortcutting important integrity safeguards through a
                              mistaken sense of urgency. Responding to the report, the
                              postmaster general said that the purchasing process had
                              been compromised, not because of fundamental defects in
                              Postal Service’s purchasing policies, but because officials
                              chose to deviate from those policies.

                              Report number OCG-99-21, “Major Management
                              Challenges and Program Risks: U. S. Postal Service,” dated
                              January 1, 1999. The GAO reported that in 1996, the
                              Postal Service expended about $89 million on penalties to
                              compensate injured parties and to pay for unusable and
                              marginally usable property because of poor judgment and a
                              decision to circumvent existing internal controls to meet
                              perceived operational exigencies. The Postal Service said
                              that, to avoid a recurrence of these problems, it has
                              improved its management of major acquisitions and
                              strengthened internal controls.

                              Report number GGD-99-147, “Deficiencies Continue While
                              Antelope Valley Project Status Remains Uncertain,” dated
                              August 31,1999. The GAO noted that the Postal Service
                              followed most of its key requirements for acquiring a site
                              except that the review and approval of the proposed project
                              justification and alternatives by the headquarters Capital
                              Investment Committee did not take place prior to the
                              advance site acquisition. As a result, the Postal Service has
                              invested $6.5 million in land that has been unused for nearly
                              eight years. The GAO noted that it could not determine
                              from the available documentation, why the expansion of the
                              existing facility was not considered a viable alternative
                              before the site was acquired.




                                               2
Audit of New Construction Owned                                                 FA-AR-00-DRAFT



                                     AUDIT RESULTS
                              Based on a review of 124 files for projects valued at
                              $129 million, we observed these four Facilities Service
                              offices were complying with required actions for site
                              selection and acquisition. However, the audit revealed
                              these offices could improve their internal controls over the
                              site selection process. We determined that the site
                              acquisition files do not always document the reason that a
                              specific site was selected. Further, at one Facilities Service
                              office, we could not always determine whether the offer to
                              sell was reviewed by the responsible field counsel.

 Site Selection               Internal controls over the site selection process should be
 Process                      improved. Specifically, the site acquisition files for 58 of the
                              124 projects did not document the rationale of the site
                              selection committee. As a result, the reason that a specific
                              site was acquired was unclear.

                              Standards for Internal Controls in the Federal Government
                              requires that all transactions and other significant events are
                              to be clearly documented and the documentation is to be
                              readily available for examination. In addition, the Postal
                              Services’ Realty Acquisition and Management Handbook
                              (RE-1) requires all acquisition projects to have a Contending
                              Sites Summary Report describing all contending sites and
                              ensuring that all such sites are thoroughly evaluated. This
                              report is used by all members of the site review committee.

                              At each Facilities Service office, we reviewed the site
                              acquisition files to ensure that the Site Selection Committee
                              met, that they formally approved a site, and that the reason
                              the specific site was chosen was clearly documented in the
                              file. The files routinely documented that the Site Selection
                              Committee met and formally approved a specific site for
                              acquisition. However, the files did not document or did not
                              clearly document the rationale of the Site Selection
                              Committee decision for 58 of the 124 site acquisitions.

                              We did not find any documented reason for site selection in
                              12 of the files. The documentation was insufficient to justify
                              the site selected in 27 of the files. The remaining 19 files
                              contained a real estate planning report prepared by a




                                               3
Audit of New Construction Owned                                              FA-AR-00-DRAFT




                              contractor that was dated subsequent to the site selection
                              meeting. Therefore, we do not know what information the
                              committee had available when they voted.

 Recommendation               1. We recommend that the vice president of Facilities
                                 require the Site Selection Committee to document the
                                 reason for its selection.

 Management’s                 Management indicated agreement with our recommendation
 Comments                     and the vice president, Facilities, sent a memorandum to
                              the real estate managers at the Field Service Offices
                              requiring that each site selection recommendation include a
                              written narrative explaining the factors used to rank each
                              site.

 Evaluation of                Management's comments are responsive to our
 Management’s                 recommendation and the actions, taken or planned, address
 Comments                     the issue.




                                              4
Audit of New Construction Owned                                                FA-AR-00-DRAFT




 Legal Review                 Nineteen of the forty-four site acquisition files reviewed at
                              the Mid-Atlantic Facilities Service office did not contain
                              evidence that the offer to sell was reviewed by the
                              responsible field counsel office. Postal Service Counsel for
                              the Mid-Atlantic Facilities Service office advised us that
                              legal reviews had been conducted.

                              The Realty Acquisition and Management Handbook
                              requires the contracting officer to obtain a review of the
                              acquisition package and supporting data by field counsel
                              and resolve any identified problems before accepting the
                              offer to sell.

                              For the 19 site acquisition files that did not contain evidence
                              of legal review, we asked the manager of Real Estate at the
                              Mid-Atlantic Facilities Service office about the lack of legal
                              documentation. He explained that most of their interaction
                              is done by telephone and the field counsel does not provide
                              documentation confirming the review. The manager of the
                              Mid-Atlantic Facilities Service office explained that any prior
                              problems were solved because an attorney from the Atlanta
                              field office now visits the Mid-Atlantic Facilities Service
                              office and reviews the files.

 Recommendation               2. We recommend that the vice president, Facilities,
                                 require the manager of the Mid-Atlantic Facilities Service
                                 office obtain a memo from the responsible field counsel
                                 office for each real estate transaction that documents
                                 legal sufficiency.

 Management’s                 Management indicated agreement with our recommendation
 Comments                     and the acting manager for real estate at the Mid-Atlantic
                              Field Service Office issued a memorandum to the real
                              estate staff reaffirming the requirement to obtain a
                              memorandum from the Office of Field Legal Services
                              attesting to the sufficiency of all legal documents appearing
                              as a part of the proposed fee acquisition.

 Evaluation of                Management’s comments are responsive to our
 Management’s                 recommendation and the actions, taken or planned, address
 Comments                     the issue.




                                               5
Audit of New Construction Owned                      FA-AR-00-DRAFT



                   APPENDIX. MANAGEMENT’S COMMENTS




                                  6
Audit of New Construction Owned       FA-AR-00-DRAFT




                                  7
Audit of New Construction Owned       FA-AR-00-DRAFT




                                  8
